Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   NURSING FACILITIES’
COMPLIANCE WITH FEDERAL
    REGULATIONS FOR
 REPORTING ALLEGATIONS
  OF ABUSE OR NEGLECT




                    Daniel R. Levinson
                     Inspector General

                      August 2014
                     OEI-07-13-00010
EXECUTIVE SUMMARY: NURSING FACILITIES’ COMPLIANCE WITH FEDERAL
REGULATIONS FOR REPORTING ALLEGATIONS OF ABUSE OR NEGLECT
OEI-07-13-00010

WHY WE DID THIS STUDY

To protect the well-being of residents, nursing facilities must develop and implement written
policies related to reporting allegations of abuse, neglect, mistreatment, injuries of unknown
source, and misappropriation of resident property (allegations of abuse or neglect). Further,
allegations of abuse or neglect must be reported to the facility administrator or designee and
the State survey agency within 24 hours. Results of investigations of these allegations must
be reported to the same authorities within 5 working days. Nursing facilities must also notify
owners, operators, employees, managers, agents, or contractors of nursing facilities (covered
individuals) annually of their obligation to report reasonable suspicions of crimes.

HOW WE DID THIS STUDY

This study included a: (1) review of sampled nursing facilities’ policies related to reporting
allegations of abuse or neglect, (2) review of sampled nursing facilities’ policies related to
reasonable suspicions of crimes, and (3) survey of administrators from those sampled
facilities. It also included an examination of a random sample of allegations of abuse or
neglect identified from the sampled nursing facilities, and a review of documentation related
to those sampled allegations.

WHAT WE FOUND

It is both required and expected that nursing facilities will report any and all allegations of
abuse or neglect to ensure resident safety. We found that 85 percent of nursing facilities
reported at least one allegation of abuse or neglect to OIG in 2012. Additionally, 76 percent
of nursing facilities maintained policies that address Federal regulations for reporting both
allegations of abuse or neglect and investigation results. Further, 61 percent of nursing
facilities had documentation supporting the facilities’ compliance with both Federal
regulations under Section 1150B of the Social Security Act. Lastly, 53 percent of allegations
of abuse or neglect and the subsequent investigation results were reported, as Federally
required.

WHAT WE RECOMMEND

We recommend that the Centers for Medicare & Medicaid Services (CMS) ensure that
nursing facilities: (1) maintain policies related to reporting allegations of abuse or neglect;
(2) notify covered individuals of their obligation to report reasonable suspicions of crimes;
and (3) report allegations of abuse or neglect and investigation results in a timely manner and
to the appropriate individuals, as required. CMS concurred with all three of our
recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background..................................................................................................1

Methodology................................................................................................5

Findings .......................................................................................................7 

           Nursing facilities are required to report all allegations of abuse or 

           neglect to ensure resident safety; 85 percent of nursing facilities 

           reported at least one such allegation to OIG in 2012 ...................... 7 

           Seventy-six percent of nursing facilities maintained policies 

           that address Federal regulations for reporting allegations of abuse or 

           neglect and subsequent investigation results ...................................9 

           Sixty-one percent of nursing facilities had documentation supporting 

           the facilities’ compliance with both Federal regulations under Section 

           1150B of the SSA ..........................................................................10 

           Fifty-three percent of allegations of abuse or neglect and the 

           subsequent investigation results were reported, 

           as Federally required .....................................................................12 

Conclusion and Recommendations ........................................................... 14 

           Agency Comments and Office of Inspector General 

           Response........................................................................................16 

Appendixes ................................................................................................17 

           A: Detailed Methodology .............................................................17 

           B: Point Estimates, Sample Sizes, and Confidence Intervals .......22 

           C: Means Testing Results for Specific Data Points ...................... 26 

           D: Example of Letter Notifying Covered Individual of 

           Obligation to Report Reasonable Suspicions of Crimes ...............28 

           E: Example of a Posted Notification Specifying Employees’ 

           Rights to File a Complaint under Section 1150B of the SSA .......29 

           F: Agency Comments ...................................................................30 

Acknowledgments .....................................................................................33 

                   OBJECTIVES
                   1.	 To determine the extent to which nursing facilities:
                             a.	 reported allegations of abuse or neglect in 2012;
                             b.	 had written policies that address reporting allegations of abuse
                                 or neglect as required by Federal regulations; and
                             c.	 complied with Federal regulations related to reasonable
                                 suspicions of crimes under Section 1150B of the
                                 Social Security Act (SSA).
                   2.	 To determine the extent to which allegations of abuse or neglect were
                       reported by nursing facilities in compliance with Federal regulations.


                   BACKGROUND
                   It is estimated that approximately 5 million, or 10 percent, of elderly
                   adults are abused, neglected, or exploited annually.1 Between now and
                   2050, the United States is projected to experience significant growth in its
                   elderly population. In 2050, the number of Americans aged 65 and older
                   is projected to be 88.5 million, more than double the population of
                   40.2 million in 2010.2 Nursing facilities are likely to experience increases
                   in their resident population; therefore, it is important to ensure that
                   residents are protected from abuse and neglect.
                   Types of Allegations
                   Pursuant to Federal regulations, all nursing facility residents must not be
                   subjected to abuse by anyone, including, but not limited to, facility staff.3
                   Nursing facility residents also have “the right to be free from
                   mistreatment, neglect, and misappropriation of property.”4 Further, all
                   Medicare and/or Medicaid-certified nursing facilities must report “alleged
                   violations involving mistreatment, neglect, or abuse, including injuries of




                   1
                    Administration for Community Living, Release of the FY 2014 Budget Request to
                   Congress, February 13, 2013. Accessed at
                   http://acl.gov/About_ACL/Budget/docs/FY2014_ACL_CJ.pdf on January 13, 2014.
                   2
                     United States Census Bureau, The Next Four Decades, The Older Population in the
                   United States: 2010 to 2050, May 2010. Accessed at
                   http://www.census.gov/prod/2010pubs/p25-1138.pdf on January 28, 2014.
                   3
                     Centers for Medicare & Medicaid Services (CMS), State Operations Manual
                   (Internet-Only Manual), Pub. 100-07, Appendix PP: Guidance to Surveyors for Long
                   Term Care Facilities, F223, § 483.13(b), Abuse.
                   4
                     Ibid, F224, § 483.13(c), Staff Treatment of Residents.

Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)   1
                   unknown source, and misappropriation of resident property….”5, 6 Table 1
                   includes CMS definitions of the terms abuse, injuries of unknown source,
                   neglect, misappropriation of resident property, and mistreatment. For the
                   purposes of this study, we will use the general phrase “allegations of abuse
                   or neglect” to refer to all types of allegations.
                  Table 1: Definition of Each Type of Allegation

                       Allegation                     Definition

                                                      The willful infliction of injury, unreasonable confinement, intimidation, or
                       Abuse                                                                                           7
                                                      punishment with resulting physical harm, pain or mental anguish.

                                                      An injury should be classified as an “injury of unknown source” when both of
                                                      the following conditions are met:
                                                            1. The source of the injury was not observed by any person or the
                                                                 source of the injury could not be explained by the resident; and
                       Injuries of Unknown
                       Source                               2.    The injury is suspicious because of the extent of the injury or the
                                                                  location of the injury (e.g., the injury is located in an area not
                                                                  generally vulnerable to trauma) or the number of injuries observed at
                                                                                                                                       8
                                                                  one particular point in time or the incidence of injuries over time.

                                                      Failure to provide goods and services necessary to avoid physical harm,
                       Neglect                                                          9
                                                      mental anguish, or mental illness.
                                                      The deliberate misplacement, exploitation, or wrongful, temporary or
                       Misappropriation of            permanent use of a resident’s belongings or money without the resident’s
                       Resident Property                       10
                                                      consent.
                       Mistreatment                   Not defined as of March 2014.
                   Source: CMS, Memorandum to State Survey Agency Directors, S&C-05-09, Clarification of Nursing Home Reporting
                   Requirements for Alleged Violations of Mistreatment, Neglect, and Abuse, Including Injuries of Unknown Source, and
                   Misappropriation of Resident Property, December 16, 2004.




                   5
                     42 CFR § 483.13(c)(2). Pursuant to 42 CFR § 483.5, a “facility” is defined as a “skilled

                   nursing facility (SNF) that meets the requirements of sections 1819(a), (b), (c), and (d) of

                   the Act, or a nursing facility (NF) that meets the requirements of sections 1919(a), (b), 

                   (c), and (d) of the SSA.” For the purposes of this report, we use the term “nursing

                   facility” to refer to both Medicare skilled nursing facilities and Medicaid nursing

                   facilities. 

                   6
                     All nursing facilities participating in the Medicare and/or Medicaid programs must be

                   certified as meeting Federal nursing facility quality and safety requirements, including

                   requirements regarding allegations of abuse or neglect. For the purposes of this study, we

                   did not review deficiency citations or actions taken for noncompliance by State survey

                   agencies. 

                   7
                     42 CFR § 488.301.

                   8
                     CMS, Memorandum to State Survey Agency Directors, S&C-05-09, Clarification of

                   Nursing Home Reporting Requirements for Alleged Violations of Mistreatment, Neglect,

                   and Abuse, Including Injuries of Unknown Source, and Misappropriation of Resident

                   Property, December 16, 2004. 

                   9
                     42 CFR § 488.301.

                   10
                      Ibid. 


Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)                  2
                   Nursing Facilities’ Policies Related to Prohibiting Abuse or
                   Neglect
                   Pursuant to Federal regulations, nursing facilities must develop and
                   implement written policies that prohibit abuse or neglect.11 Nursing
                   facilities’ policies prohibiting abuse or neglect must address the following
                   seven components: screening, training, prevention, identification,
                   investigation, protection, and reporting/response.12 For the purposes of
                   this study, we focused our review on written policies regarding reporting
                   allegations of abuse or neglect.
                   Reporting Allegations of Abuse or Neglect
                   Nursing facilities must report all allegations of abuse or neglect13
                   immediately to the nursing facility administrator or designee, State survey
                   and certification agency (State survey agency), and to other officials in
                   accordance with State law.14, 15 An allegation of abuse or neglect is
                   required to be reported immediately; an investigation is subsequently
                   conducted to determine and substantiate the allegation. Not all allegations
                   of abuse or neglect are substantiated. Nursing facilities are required to
                   report the results of investigations of these allegations to the nursing
                   facility administrator or designee, State survey agency, and to other
                   officials in accordance with State law within 5 working days of the
                   incident.16
                   In December 2004, CMS sent a memorandum to State survey agency
                   directors clarifying the nursing facility reporting regulations at




                   11
                      42 CFR § 483.13(c). See also CMS, State Operations Manual (Internet-Only Manual), 

                   Pub. 100-07, Appendix PP: Guidance to Surveyors for Long Term Care Facilities, F226, 

                   § 483.13(c), Staff Treatment of Residents. 

                   12
                      Ibid. 

                   13
                      Nursing facilities may become aware of allegations of abuse or neglect through many

                   sources. These sources may include: residents, family members of residents, and nursing 

                   facility staff. 

                   14
                      42 CFR § 483.13(c)(2). State law may stipulate that nursing facilities report 

                   allegations of abuse to additional State officials beyond those specified in Federal
                   requirements.
                   15
                      Generally, if a State survey agency determines that a nursing facility fails to comply
                   with a specific requirement (e.g., failure to report an allegation of abuse or neglect), the
                   facility may receive a deficiency citation. For the purposes of this study, we did not
                   review deficiency citations or actions taken for noncompliance by State survey agencies.
                   16
                      42 CFR § 483.13(c)(4). State law may stipulate that nursing facilities report
                   investigative results to additional State officials beyond those specified in Federal
                   requirements. No State law can override the obligation of a Medicare and/or Medicaid
                   certified nursing facility to fulfill the requirements at 42 CFR § 483.13(c), including
                   42 CFR §§ 483.12(c)(2) and (4). Therefore, States may not establish longer timeframes
                   for reporting than those mandated in the requirements at 42 CFR §§ 483.13(c)(2) and (4).

Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)   3
                   42 CFR §§ 483.13(c)(2) and (4).17 The memorandum reiterated the
                   reporting of allegations of abuse or neglect and the results of the
                   investigations by nursing facilities to the State survey agency. In this
                   memorandum, CMS also clarified the requirement that nursing facilities
                   report allegations of abuse or neglect immediately by defining the term
                   “immediately” to mean as soon as possible, but ought not to exceed
                   24 hours after discovery of the incident, in the absence of a shorter State
                   timeframe requirement.18
                   Reporting Reasonable Suspicions of Crimes
                   Section 6703(b)(3) of the Elder Justice Act of 2009 amends the SSA by
                   adding section 1150B.19 Section 1150B requires owners, operators,
                   employees, managers, agents, or contractors of nursing facilities (covered
                   individuals) in applicable nursing facilities to report any reasonable
                   suspicion of crimes committed against a resident of that facility to the
                   appropriate entities (e.g., law enforcement entities).20 The nursing
                   facility’s responsibility to report all allegations of abuse or neglect is
                   separate from a covered individual’s responsibility outlined in
                   Section 1150B.
                   Section 1150B requires applicable nursing facilities to annually notify
                   covered individuals of their obligation to report to the appropriate entities
                   any reasonable suspicions of a crime.21 Nursing facilities may not retaliate
                   against covered individuals who lawfully report a reasonable suspicion of
                   a crime.22 Further, nursing facilities are required to clearly post a notice
                   for employees specifying employees’ rights to file a complaint under
                   Section 1150B.23



                   17
                      CMS, Memorandum to State Survey Agency Directors, S&C-05-09, Clarification of
                   Nursing Home Reporting Requirements for Alleged Violations of Mistreatment, Neglect,
                   and Abuse, Including Injuries of Unknown Source, and Misappropriation of Resident
                   Property, December 16, 2004.
                   18
                      Ibid.
                   19
                      Elder Justice Act of 2009 (EJA), P.L. 111-148, title VI, subtitle H, § 6703(b)(3),
                   adding SSA § 1150B, 42 U.S.C. § 1320b-25. The EJA was enacted as part of the Patient
                   Protection and Affordable Care Act (PPACA). The PPACA (P.L. 111-148, enacted on
                   March 23, 2010) was amended by the Health Care and Education Reconciliation Act of
                   2010 (P.L. 111-152, enacted on March 30, 2010). Together, these laws are referred to as
                   the Affordable Care Act (ACA).
                   20
                      SSA § 1150B. Applicable nursing facilities include those facilities that receive at least
                   $10,000 in Federal funds under the SSA during the preceding year. Further, the law of
                   the applicable political subdivision in which the long-term-care facility is located defines
                   the meaning of the phrase “reasonable suspicion of a crime.”
                   21
                      SSA § 1150B(a)(2).
                   22
                      SSA § 1150B(d).
                   23
                      SSA § 1150B(d)(3).

Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)   4
                   In June 2011, CMS sent a memorandum to State survey agency directors
                   that described the regulations related to reporting reasonable suspicions of
                   crimes set forth in Section 1150B and provided answers to frequently
                   asked questions.24 In this memorandum, CMS also indicated that nursing
                   facilities’ policies should “address the mechanism for documenting that all
                   covered individuals have been notified annually of their reporting
                   obligations.”25 The memorandum further indicated that “[e]xamples of
                   such documentation may include a copy of a notice or letter sent to
                   covered individuals or a completed training/orientation attendance sheet
                   specifying reporting obligations.”
                   Related Reports
                   In 2006, the Office of Inspector General (OIG) conducted an evaluation
                   entitled Nursing Home Complaint Investigations (OEI-01-04-00340),
                   which found that State agencies did not investigate some of the most
                   serious nursing home complaints within required timeframes; States did
                   not take full advantage of the available complaint reporting system; and, in
                   a targeted review of five States, State agencies followed protocol for
                   intake and triage but followup letters to complainants often lacked
                   meaningful information.26

                   METHODOLOGY
                   We conducted this study in two parts. The first part included a:
                   (1) review of policies related to reporting allegations of abuse or neglect
                   from a sample of 250 nursing facilities from two strata, as shown in
                   Table 2, (2) review of the sampled nursing facilities’ policies and
                   procedures related to reasonable suspicions of crimes, and (3) survey of
                   administrators from the sampled nursing facilities. All estimates for part
                   one are projected to the population of nursing facilities.27




                   24
                      CMS, Memorandum to State Survey Agency Directors, S&C: 11-30-NH, Reporting

                   Reasonable Suspicion of a Crime in a Long-Term Care Facility (LTC): Section 1150B of 

                   the SSA, June 17, 2011. The memorandum was revised on January 20, 2012, to include 

                   an updated questions-and-answers section and appendix. 

                   25
                      Ibid. 

                   26
                      OIG, Nursing Home Complaint Investigations (OEI-01-04-00340), July 2006. 

                   27
                      We received information from 245 of the 250 nursing facilities in our sample resulting 

                   in a 98 percent response rate. Therefore, the projected population for our sample is 

                   15,550 instead of 15,854.


Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)   5
                   Table 2: Nursing Facility Population and Sample Size

                                                                                             Population          Sample
                     Stratum Definition
                                                                                                   Size            Size

                     Nursing Facilities That Have a Total Certified Size Greater
                                                                                                    6,347            125
                     Than or Equal to 113 Beds (Large Facilities)

                     Nursing Facilities That Have a Total Certified Size Less Than
                                                                                                    9,507            125
                     113 Beds (Small Facilities)

                         Total                                                                     15,854            250

                   Source: OIG analysis of the Certification and Survey Provider Enhanced Reporting database as of
                   March 26, 2013.

                   The second part of this study included an examination of a sample of
                   301 allegations of abuse or neglect (from the population of
                   2,502 allegations) identified by the nursing facilities in the first part of the
                   study. The second part included a review of documentation related to
                   sampled allegations of abuse or neglect (e.g., investigation records). All
                   estimates for part two are projected to the population of allegations of
                   abuse or neglect reported by sampled nursing facilities from part one. See
                   Appendix A for a detailed description of our methodology.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)           6
                   FINDINGS
                   Nursing facilities are required to report all allegations
                   of abuse or neglect to ensure resident safety;
                   85 percent of nursing facilities reported at least one
                   such allegation to OIG in 2012
                   It is both required and expected that nursing facilities will report any and
                   all allegations of abuse or neglect to ensure resident safety. Eighty-five
                   percent of nursing facilities reported at least one allegation of abuse or
                   neglect to OIG in 2012. An allegation of abuse or neglect is required to be
                   reported immediately; an investigation is subsequently conducted to
                   determine and substantiate the allegation. Not all allegations of abuse or
                   neglect are substantiated.28 Allegations of abuse or neglect include the
                   following types: abuse, injuries of unknown source, misappropriation of
                   resident property, neglect, or mistreatment. A total of 149,313 allegations
                   of abuse or neglect were reported by facilities to OIG in 2012. Nursing
                   facilities identified the type and nature of allegations that occurred.
                   Abuse was the most common type of allegation, accounting for half of the
                   allegations in 2012. See Table 3 for information regarding the types of
                   allegations that nursing facilities reported to OIG in 2012. Nursing
                   facilities described the individuals involved in the alleged incidents by
                   identifying the nature of the allegations (e.g., resident to resident).
                   Nursing facilities identified 40 percent of allegations as employee to
                   resident. See Table 4 for information regarding the nature of allegations of
                   abuse or neglect that nursing facilities reported to OIG in 2012. See
                   Appendix B for all estimates and 95-percent confidence intervals for
                   projections.




                   28
                      For the purposes of this study, we did not determine whether the allegations of abuse or
                   neglect reported by the sampled nursing facilities were substantiated.

Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)   7
                   Table 3: Types of Allegations of Abuse or Neglect That Nursing
                   Facilities Reported in 2012
                                                                                           Number of              Projected
                                                                                        Allegations in           Number of        Percentage of
                     Type of Allegation
                                                                                               Sample           Allegations         Allegations
                                                                                             (n=2,502)         (N=149,313)
                     Abuse                                                                         1,265             75,658                50.7

                     Injuries of unknown source                                                      476             27,759                18.6

                     Misappropriations of resident property                                          392             22,281                14.9

                     Neglect                                                                         275             17,553                11.8

                     Mistreatment                                                                     92               5,961                3.9

                     Other                                                                              2                102                0.1

                        Total                                                                      2,502           149,314*                100

                   Source: OIG analysis of allegations of abuse or neglect reported by nursing facilities, 2014.
                   * Numbers do not total precisely because of rounding.




                   Table 4: Nature of Allegations of Abuse or Neglect That Nursing
                   Facilities Reported in 2012

                                                                                             Number of                Projected
                                                                                          Allegations in             Number of      Percentage of
                     Nature of Allegation
                                                                                                 Sample             Allegations       Allegations
                                                                                               (n=2,502)           (N=149,313)

                     Employee to resident                                                           1,010               60,132               40.3

                     Perpetrator unknown                                                              659               39,099               26.2

                     Resident to resident                                                             600               36,078               24.2

                     Resident self-neglect (e.g., resident self-inflicted injury)                       89               5,733                3.8

                     Family or other visitor to resident                                                59               3,476                2.3

                     Nature not specified                                                               46               2,538                1.7

                     Resident to employee                                                               25               1,320                0.9

                     Outside medical professional to resident                                           14                 938                0.6

                        Total                                                                       2,502             149,314*               100
                   Source: OIG analysis of allegations of abuse or neglect reported by nursing facilities, 2014.
                   * Numbers do not total precisely because of rounding.




Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)                    8
                   When we reviewed facilities on the basis of size, we found that 87 percent
                   of large nursing facilities had allegations of abuse or neglect in 2012, and
                   84 percent of small nursing facilities had allegations of abuse or neglect.29, 30

                   Seventy-six percent of nursing facilities maintained
                   policies that address Federal regulations for reporting
                   both allegations of abuse or neglect and subsequent
                   investigation results
                   Nursing facilities must have policies that prohibit abuse or neglect, which
                   must include policies for reporting allegations of abuse or neglect and the
                   subsequent investigation results to the appropriate individuals within the
                   required timeframes. In 2012, 76 percent of nursing facilities
                   (11,744 facilities) maintained policies that address Federal regulations for
                   reporting both allegations of abuse or neglect and subsequent investigation
                   results. Ninety-five percent of nursing facilities had policies that reflected
                   Federal regulations for reporting allegations of abuse or neglect.
                   Seventy-six percent of nursing facilities had policies that reflected Federal
                   regulations for reporting subsequent investigation results of allegations of
                   abuse or neglect. See Table 5 for the number and percentage of nursing
                   facilities that had policies that address Federal regulations for reporting
                   allegations of abuse or neglect. 31




                   29
                      Per our methodology in Appendix A, we define large nursing facilities as facilities that
                   have a total certified size greater than or equal to 113 beds. We define small facilities as
                   facilities that have a total certified size less than 113 beds.
                   30
                      We did not identify a statistically significant difference (p=0.48) between these two
                   types of nursing homes. See Table C-1 in Appendix C.
                   31
                      The remaining 24 percent of nursing facilities maintained written policies that prohibit
                   abuse or neglect; however, these policies did not address the Federal requirements related
                   to reporting allegations of abuse or neglect and/or the investigation results. Further, we
                   did not identify a statistically significant difference (p=0.52) between nursing facilities
                   that maintained policies and those facilities that did not maintain policies with regard to
                   reporting allegations of abuse or neglect in part one of this study. See Table C-2 in
                   Appendix C.

Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)   9
                   Table 5: Nursing Facilities That Maintained Policies That Addressed
                   Federal Regulations for Reporting Allegations of Abuse or Neglect

                                                                                                                            Percentage of
                                                                                                                                   Nursing
                                                                                           Number of        Projected
                                                                                                                            Facilities That
                                                                                              Nursing      Number of
                                                                                                                               Maintained
                     Federal Regulations                                                     Facilities       Nursing
                                                                                                                             Policies That
                                                                                            in sample        Facilities
                                                                                                                               Addressed
                                                                                               (n=245)     (N=15,550)
                                                                                                                                    Federal
                                                                                                                              Regulations

                     Allegations of abuse or neglect must be immediately
                     reported to the nursing facility administrator or designee                   232           14,738                   94.8
                     and the State survey agency

                     Investigation results must be reported to the nursing
                     facility administrator or designee and the State survey                      185           11,871                   76.3
                     agency within 5 working days of the incident

                        Total number of nursing facilities that had
                                                                                                  183           11,744                   75.5*
                        policies that addressed both Federal regulations

                   Source: OIG analysis of nursing facilities’ reporting policies, 2014.
                   *The actual percentage of nursing facilities that addressed both Federal regulations is 75.52 percent. The actual number,
                   75.52, rounds to 75.5. As a whole number, this percentage rounds to 76 percent.

                   When we reviewed facilities on the basis of size, we found that 70 percent
                   of large nursing facilities maintained policies that addressed both reporting
                   allegations of abuse or neglect and reporting the investigation results.
                   Seventy-nine percent of small nursing facilities maintained such policies.32

                   Sixty-one percent of nursing facilities had
                   documentation supporting the facilities’ compliance
                   with both Federal regulations under Section 1150B of
                   the SSA
                   Under Section 1150B of the SSA, nursing facilities must annually notify
                   covered individuals (i.e., owners, operators, employees, managers, agents,
                   or contractors of nursing facilities) of their obligation to report to the
                   appropriate entities any reasonable suspicion of a crime. Further, nursing
                   facilities must also clearly post a notice specifying employees’ rights to
                   file a complaint under Section 1150B. In 2012, 61 percent of nursing
                   facilities (9,487 facilities) had documentation to support that both of these
                   regulations were met. See Table 6 for the number and percentage of
                   nursing facilities that had documentation to support that Federal
                   regulations related to reporting reasonable suspicions of crimes were met.




                   32
                     We did not identify a statistically significant difference (p=0.12) between these two
                   types of nursing homes. See Table C-3 in Appendix C.

Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)                    10
                   Table 6: Nursing Facilities with Documentation to Support That Federal
                   Regulations Related to Reasonable Suspicions of Crimes Were Met


                                                                                                                          Percentage of
                                                                                Number of           Projected
                                                                                                                      Nursing Facilities
                                                                                  Nursing          Number of
                                                                                                                    with Documentation
                     Federal Regulations                                       Facilities in          Nursing
                                                                                                                        to Support That
                                                                                   Sample            Facilities
                                                                                                                       Both Regulations
                                                                                   (n=245)         (N=15,550)
                                                                                                                              Were Met


                     Nursing facility must annually notify covered
                     individuals of their obligation to report to the
                                                                                         162            10,400                           66.8
                     appropriate entities any reasonable suspicion
                     of a crime

                     Nursing facility must clearly post a notice for its
                     employees specifying employees’ rights to file a                    195            12,429                           79.9
                     complaint under Section 1150B of the SSA


                        Total number of nursing facilities with
                        documentation to support that both                               148             9,487                           61.0
                        regulations were met

                   Source: OIG analysis of nursing facilities’ submitted documentation regarding reasonable suspicion of crimes, 2014.


                   Nursing facilities provided various types of documentation to support that
                   covered individuals were notified of their obligation to report reasonable
                   suspicions of crimes. Examples of documentation provided included
                   letters to employees, employee training logs, Employee Bill of Rights, and
                   employee-signed attestations. See Appendix D for an example of a letter
                   notifying a covered individual of his/her obligation to report reasonable
                   suspicions of crimes.
                   Nursing facilities also provided various types of documentation supporting
                   compliance with the requirement to post notification specifying
                   employees’ rights to file a complaint under Section 1150B of the SSA.
                   Examples of documentation provided included copies of posters
                   specifying rights, photographs of posted documentation in employee break
                   rooms, and posted Employee Bill of Rights. See Appendix E for an
                   example of a posted notification specifying employees’ rights to file a
                   complaint.
                   When we reviewed facilities on the basis of size, we found that 57 percent
                   of large nursing facilities had documentation to support that both Federal
                   regulations related to reasonable suspicions of crimes were met. Sixty-three
                   percent of small nursing facilities had such documentation.33



                   33
                     We did not identify a statistically significant difference (p=0.32) between these two
                   types of nursing homes. See Table C-4 in Appendix C.

Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)                   11
                   Fifty-three percent of allegations of abuse or neglect
                   and the subsequent investigation results were
                   reported, as Federally required
                   In 2012, 53 percent of allegations of abuse or neglect and the subsequent
                   investigation results (1,338 allegations) were reported, as Federally
                   required. Sixty-three percent of allegations of abuse or neglect were
                   immediately reported to the nursing facility administrator or designee and
                   the State survey agency, as required. Further, the subsequent investigation
                   results for 63 percent of allegations of abuse or neglect were reported to
                   the appropriate individuals within 5 working days, as required. See
                   Table 7 for the number and percentage of allegations of abuse or neglect
                   that were reported in compliance with Federal regulations.
                   Table 7: Allegations of Abuse or Neglect That Were Reported by Nursing
                   Facilities in Compliance With Federal Regulations

                                                                                             Number of            Projected
                                                                                            Allegations          Number of            Percent of
                     Federal Regulations
                                                                                             in Sample          Allegations          Allegations
                                                                                                (n=301)           (N=2,502)


                     Allegations of abuse or neglect must be immediately
                     reported to the nursing facility administrator or designee                       189               1,571               62.8
                     and the State survey agency

                     Investigation results must be reported to the nursing facility
                     administrator or designee and the State survey agency                            191               1,588               63.4
                     within 5 working days of the incident

                        Total number of allegations of abuse or neglect that
                        were reported in compliance with both Federal                                 161               1,338               53.4
                        regulations

                   Source: OIG analysis of documentation for allegations of abuse or neglect provided by nursing facilities, 2014.


                   When we reviewed facilities on the basis of size, we found that 57 percent
                   of allegations of abuse or neglect were from large nursing facilities that
                   provided documentation to support that allegations were reported in
                   compliance with Federal regulations. Forty-seven percent of small
                   nursing facilities had such documentation.34
                   Nursing facilities provided various types of documentation to support that
                   allegations of abuse or neglect were reported in compliance with Federal
                   regulations. Examples of documentation provided included copies of
                   incident report forms signed and dated by the facility administrator, copies
                   of facsimiles sent to the State survey agency, and copies of email


                   34
                     We did not identify a statistically significant difference (p=0.07) between these two
                   types of nursing homes. See Table C-5 in Appendix C.

Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)                       12
                   confirmations from the State survey agency to the facility administrator
                   regarding receipt of notification about the allegation of abuse.
                   Nursing facilities also provided various types of documentation to support
                   that investigation results of allegations of abuse or neglect were reported
                   in compliance with Federal regulations. Examples of documentation
                   provided included copies of investigation report forms signed and dated by
                   the facility administrator, copies of facsimiles sent to the State survey
                   agency, and copies of screenshots from State reporting systems indicating
                   that investigation results were reported to the State survey agency within
                   the required timeframe.




Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)   13
                   CONCLUSION AND RECOMMENDATIONS
                   It is both required and expected that nursing facilities will report any and
                   all allegations of abuse or neglect to ensure resident safety. Eighty-five
                   percent of nursing facilities reported at least one allegation of abuse or
                   neglect to OIG in 2012. Seventy-six percent of nursing facilities
                   maintained policies that address Federal regulations for both reporting
                   allegations of abuse or neglect and subsequent investigation results.
                   Further, 61 percent of nursing facilities had documentation supporting the
                   facilities’ compliance with both Federal regulations under Section 1150B
                   of the SSA. Lastly, 53 percent of allegations of abuse or neglect and the
                   subsequent investigation results were reported, as Federally required.
                   Given the increasing elderly population in the United States and the
                   growing number of individuals over age 65 receiving care in nursing
                   facilities, elder abuse or neglect is likely to increase as well. To ensure
                   quality of care for this vulnerable population, we recommend that CMS:
                   Ensure that nursing facilities maintain policies related to
                   reporting allegations of abuse or neglect
                   To ensure that CMS reaches all nursing facilities that may be out of
                   compliance, CMS could update guidance that clearly describes the
                   reporting regulations that should be established in facilities’ written
                   policies for reporting allegations of abuse or neglect and the subsequent
                   investigation results. We will provide to CMS a list of the nursing
                   facilities in our sample that did not address Federal regulations for
                   reporting allegations of abuse or neglect and investigation results in their
                   written policies. CMS should take appropriate action to ensure these
                   nursing facilities have the pertinent policies.
                   Ensure that nursing facilities comply with their responsibilities
                   under Section 1150B of the SSA
                   To support nursing facilities’ implementation of Federal regulations, CMS
                   could develop and share reporting templates. For example, CMS could
                   develop: (1) customizable templates of annual notification letters to
                   covered individuals and (2) posters and materials describing employees’
                   rights to file a complaint under Section 1150B of the SSA. Further, CMS
                   could reissue guidance that recommends that nursing facilities maintain
                   adequate documentation to support that they notified covered individuals.
                   We will provide to CMS a list of the nursing facilities in our sample that
                   did not have documentation to support that covered individuals were
                   notified and notification was posted.



Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)   14
                   Ensure that nursing facilities report allegations of abuse or
                   neglect and investigation results in a timely manner and to the
                   appropriate individuals, as required
                   To ensure that CMS reaches all nursing facilities that may be out of
                   compliance, CMS could reissue guidance that clearly describes the
                   timeframes and appropriate individuals for which allegations of abuse or
                   neglect and the subsequent investigation results should be reported. CMS
                   should reiterate in this guidance that all allegations of abuse or neglect
                   must be reported to the State survey agency, as required by Federal law.
                   Further, the guidance could recommend that nursing facilities maintain
                   adequate documentation to support that allegations of abuse or neglect are
                   reported in compliance with these regulations. We will provide to CMS a
                   list of the nursing facilities in our sample that did not report allegations of
                   abuse or neglect and investigation results in compliance with Federal
                   regulations for appropriate action.




Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)   15
                   AGENCY COMMENTS AND OFFCIE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with all three of our recommendations.
                   In responding to our first recommendation, CMS stated that it previously
                   distributed guidance related to the proper reporting of allegations of abuse
                   or neglect via Survey and Certification memoranda provided to State
                   agency directors and posted on the CMS Web site. Additionally, CMS
                   stated that it distributed a training toolkit to State survey directors
                   regarding reporting regulations and guidance related to Section 1150B of
                   the SSA. CMS further stated that it would advise State agencies and
                   providers to use the various resources that it had made available, such as
                   the State Operations Manuals and Survey and Certification memoranda.
                   Lastly, CMS stated that it would explore additional opportunities to
                   promote compliance with Section 1150B of the SSA.
                   In responding to our second recommendation, CMS stated that it holds
                   conference calls with stakeholders to discuss nursing facility issues and
                   that it would use these calls to discuss and reinforce Section 1150B
                   reporting regulations. CMS also stated that it provided guidance to State
                   agency directors regarding the information that should be included in the
                   posted notice about employees’ right to file a complaint under Section
                   1150B of the SSA. CMS stated that it would consider OIG’s
                   recommendation to draft such materials as: (1) customizable templates of
                   annual notification letters to covered individuals and (2) posters and
                   materials describing employees’ rights to file a complaint under Section
                   1150B of the SSA.
                   In responding to our third recommendation, CMS stated that it would
                   discuss OIG’s report results with State agency directors and reiterate
                   covered individuals’ reporting obligation timelines and regulations. CMS
                   also stated that it would update or reissue guidance on this issue, as
                   necessary.
                   We support CMS’s efforts to address these issues and encourage continued
                   progress, including taking appropriate action for those nursing facilities
                   that did not comply with Federal regulations. For the full text of CMS’s
                   comments, see Appendix F.




Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)   16
                   APPENDIX A
                   Detailed Methodology
                   Part One
                   Nursing Facility Population and Sample Selection
                   We selected a stratified random sample from the population of
                   15,854 nursing facilities listed in the Certification and Survey Provider
                   Enhanced Reporting (CASPER) database as of March 26, 2013.35 To
                   produce overall estimates of the number and percentage of nursing
                   facilities that complied with Federal regulations related to reporting
                   allegations of abuse or neglect, we selected a sample of 250 nursing
                   facilities from 2 strata as shown in Table A-1.36
                   Table A-1: Nursing Facility Population and Sample Size

                                                                                    Population   Sample
                     Stratum Definition
                                                                                          Size     Size

                     Nursing facilities that have a total certified size
                                                                                         6,347      125
                     greater than or equal to 113 beds

                     Nursing facilities that have a total certified size less
                                                                                         9,507      125
                     than 113 beds

                          Total                                                         15,854      250

                    Source: OIG analysis of CASPER database as of March 26, 2013.


                   We stratified our sample to determine whether the bed size of a nursing
                   facility had any effect on whether it would have more or fewer allegations
                   of abuse or neglect. Further, we wanted to determine whether the bed size
                   of a nursing facility would affect whether the facility had policies related
                   to allegations of abuse or neglect.
                   Data Collection
                   For each of the 250 sampled nursing facilities, we sent the nursing facility
                   administrator a letter requesting (1) documentation of any policies related
                   to allegations of abuse or neglect, (2) documentation supporting that all
                   covered individuals were notified of their obligation to report reasonable
                   suspicions of crimes, (3) documentation to support that the facility posted

                   35
                      This population included both Medicare- and Medicaid-certified nursing facilities as of
                   March 26, 2013. As such, the population of nursing facilities from which we selected our
                   sample included both Medicare skilled nursing facilities and Medicaid nursing facilities.
                   Pursuant to 42 CFR § 483.5, a “facility” is defined as a “skilled nursing facility that
                   meets the requirements of sections 1819(a), (b), (c), and (d) of the SSA or a nursing
                   facility that meets the requirements of sections 1919(a), (b), (c), and (d) of the SSA.” For
                   the purposes of this report, we use the term “nursing facility” to refer to both Medicare
                   skilled nursing facilities and Medicaid nursing facilities.
                   36
                      We established the two strata using a rule for forming strata boundaries developed by
                   W.G. Cochran, founder of the Harvard Statistics Department.

Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)   17
                   notification specifying employees’ rights to file a complaint under
                   Section 1150B of the SSA, and (4) completion of a mail survey regarding
                   allegations of abuse or neglect. We also requested that the nursing facility
                   administrator identify the total number of allegations of abuse or neglect
                   that occurred in the facility during 2012 and indicate the type of each
                   allegation (e.g., abuse, neglect) and the nature of each allegation (e.g., the
                   allegation involved a resident abusing another resident, the allegation
                   involved an employee neglecting a resident). We sent a second letter to
                   nursing facility administrators who did not respond to our initial request.
                   We sent a final letter with confirmation of receipt through the United
                   Parcel Service to those nursing facilities that did not respond to the second
                   request. In a last attempt to contact the nonresponsive nursing facilities,
                   we contacted the administrators by telephone to verify that the facility was
                   open and whether the administrator intended to respond to our request.
                   We received responses from 245 of the 250 sampled nursing facilities
                   from which we requested documentation, a response rate of 98 percent.
                   For the other five sampled facilities, four nursing facility administrators
                   did not respond to our request.37, 38 The fifth nursing facility was closed in
                   September 2012 by court order and the requested documentation was in
                   the possession of the State in which the facility was located.39 Because of
                   the nonresponse of 5 nursing facilities (2 percent of our sample), all
                   estimates are projected to a population of 15,550 nursing facilities instead
                   of the population of 15,854 facilities.
                   Data Analysis
                   We determined whether the sampled nursing facilities’ policies regarding
                   abuse or neglect addressed reporting allegations of abuse or neglect and
                   the results of investigations to the appropriate authorities and within the
                   specified timeframes. We also determined whether the sampled nursing
                   facilities had documentation supporting that (1) all covered individuals
                   were notified of their obligation to report reasonable suspicions of crimes,

                   37
                      We collected data for part one of the study from June 24, 2013, through
                   August 31, 2013. Because data collection for part two of the study was dependent on the
                   total number of allegations of abuse or neglect identified in part one, those nursing
                   facilities that did not respond to our final request by August 31, 2013, were deemed
                   nonresponders. Two of the four nonresponders submitted the requested documentation
                   approximately two weeks after data collection ended for part one of the study. The
                   information provided by these facilities was not included in our data analysis for this
                   study.
                   38
                      We referred the nursing facilities that did not respond to our request to CMS for
                   appropriate action. 

                   39
                      The court-appointed receiver for this nursing facility provided documentation 

                   supporting that the facility was closed by the State’s superior court in 2012; as a result, 

                   all facility records were in the possession of the State. We did not seek the 

                   documentation from the State. 


Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)   18
                   and (2) that the facility posted notification specifying employees’ rights to
                   file a complaint under Section 1150B of the SSA. Finally, we determined
                   the total number of allegations of abuse or neglect for 2012 and the type
                   and nature of each allegation.
                   Determination of Whether Policies Address Reporting Regulations. For
                   each nursing facility that responded to our request, we reviewed
                   documentation of its policies and procedures for reporting allegations of
                   abuse or neglect and results of the investigation to the appropriate
                   authorities and within the specified timeframes. We considered nursing
                   facilities’ policies to address reporting allegations of abuse or neglect if the
                   policies indicated that (1) allegations of abuse or neglect must be reported
                   to the administrator or designee and the State survey agency, and (2) these
                   allegations must be reported immediately (within 24 hours). We
                   considered nursing facilities’ policies to address reporting of results of the
                   investigation if the policies indicated that (1) results of the investigation
                   must be reported to the administrator or designee and the State survey
                   agency, and (2) these results must be reported within 5 working days of
                   the incident.
                   Determination of Whether All Covered Individuals Were Notified. For
                   each nursing facility that responded to our request, we reviewed submitted
                   documentation to determine whether it supported that the facility notified
                   all covered individuals of their obligation to report reasonable suspicions
                   of crimes. Such documentation included copies of inservice training logs,
                   copies of notices provided to the covered individuals indicating such
                   obligations, and examples of signed acknowledgments of the obligation to
                   report reasonable suspicions of crimes.
                   Determination of Whether Nursing Facilities Posted Notification. For
                   each nursing facility that responded to our request, we reviewed submitted
                   documentation to determine whether it supported that the facility posted
                   notification specifying employees’ rights to file a complaint under
                   Section 1150B of the SSA. Such documentation included copies of
                   posters specifying rights, photographs of posted documentation in
                   employee break rooms, and posted Employee Bill of Rights.
                   Identification of Allegations of Abuse or Neglect. We requested that each
                   nursing facility administrator complete a survey identifying the total
                   number of allegations of abuse or neglect in the facility during 2012. The
                   survey also asked the administrator to indicate the type of each allegation
                   (e.g., abuse, neglect) and the nature of each allegation (e.g., the allegation
                   involved a resident abusing another resident, the allegation involved an
                   employee neglecting a resident). We analyzed the responses of the
                   245 nursing facility administrators who completed the survey and found

Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)   19
                   that 209 of them indicated that at least one allegation of abuse or neglect
                   occurred in their facilities in 2012.40
                   Part Two
                   Allegation Population and Sample Selection
                   We constructed the total population of allegations of abuse or neglect that
                   occurred in the 209 nursing facilities that reported at least one such
                   allegation in 2012. The total population included 2,502 allegations of
                   abuse or neglect. From this population, we selected a simple random
                   sample of 301 such allegations from the two strata as shown in
                   Table A-2.41 The 301 sampled allegations represent allegations of abuse or
                   neglect reported by 121 nursing facilities.
                   Table A-2: Population and Sample Size

                                                                           Population of                                Number of
                                                                                                  Allegations
                                                                             Allegations                                  Nursing
                     Stratum Definition                                                               Sample
                                                                         Reported in Part                                Facilities
                                                                                                         Size
                                                                                     One                              Represented


                     Nursing facilities that have a total certified
                                                                                       1,621               195                     68
                     size greater than or equal to 113 beds

                     Nursing facilities that have a total certified
                                                                                          881              106                     53
                     size less than 113 beds

                          Total                                                        2,502               301                    121

                   Source: OIG analysis of allegations of abuse reported by nursing facilities from part one of this evaluation, 2014.


                   Data Collection
                   Nursing Facility Documentation. For each of the 121 nursing facilities
                   that had a sampled allegation of abuse or neglect, we sent the
                   administrator a letter requesting documentation related to the sampled
                   allegation(s) (e.g., incident reports, witness statements, forms sent to the
                   State survey agency, investigation results). We sent a second letter to
                   nursing facility administrators who did not respond to our initial request.
                   After our second letter, we received responses from all 121 nursing
                   facilities and received documentation for all 301 sampled allegations of
                   abuse or neglect, a response rate of 100 percent.


                   40
                      Thirty-four nursing facility administrators reported that no allegations of abuse or
                   neglect occurred in their facilities in 2012. Two nursing facility administrators could not
                   identify the number of allegations of abuse or neglect that occurred in their facilities in
                   2012 because they could not find the documentation.
                   41
                      From each stratum, we selected a simple random sample of 12 percent of the
                   population of allegations of abuse or neglect reported in part one of the study. This
                   resulted in a sample of 301 allegations of abuse or neglect.

Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)                         20
                   Data Analysis
                   We reviewed the submitted documentation for the 301 sampled allegations
                   of abuse or neglect to determine whether nursing facilities complied with
                   Federal regulations. Figures derived from our analysis in part two are
                   projected to the population of 2,502 allegations of abuse or neglect
                   reported by nursing facilities in part one.
                   Compliance with Federal Regulations for Reporting Allegations of Abuse
                   or Neglect. We reviewed the submitted documentation to determine
                   whether allegations of abuse or neglect were reported in accordance with
                   Federal regulations. Specifically, we reviewed the documentation to
                   determine whether it supported that nursing facilities reported all
                   allegations of abuse or neglect within 24 hours to the administrator or
                   designee and the State survey agency.42 Such documentation included
                   incident report forms signed by the nursing facility administrator or
                   designee, copies of facsimiles sent to the State survey agency, and printed
                   screen shots of the State survey agency’s online reporting form.
                   Compliance with Federal Regulations for Reporting Investigation Results.
                   We reviewed the submitted documentation to determine whether the
                   results of investigations of allegations of abuse or neglect were reported in
                   accordance with Federal regulations. Specifically, we reviewed the
                   documentation to determine whether nursing facilities reported the results
                   of investigations of allegations of abuse or neglect to the nursing facility
                   administrator or designee and State survey agency within 5 working days
                   of the incident. Such documentation included investigation summaries
                   signed by the nursing facility administrator or designee, copies of
                   facsimiles sent to the State survey agency, and printed screen shots of the
                   State survey agency’s online reporting form.




                   42
                     Nursing facilities are required to report allegations of abuse or neglect immediately,
                   which has been defined by CMS to mean as soon as possible, but ought not exceed
                   24 hours. For the purposes of our study, we considered nursing facilities to have
                   complied with this requirement if the allegation of abuse or neglect was reported within
                   24 hours.

Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)   21
                    APPENDIX B
         Table B-1: Point Estimates, Sample Sizes, and Confidence Intervals

                                                                                    Sample      Point             95-Percent
           Estimate Description
                                                                                      Size   Estimate     Confidence Interval

           Finding 1: Estimates of allegations of abuse or neglect that nursing facilities reported in 2012

           Percentage of nursing facilities that reported at least one allegation
                                                                                       209     85.0%               80.4%–89.6%
           of abuse or neglect in 2012

           Total number of allegations of abuse or neglect that nursing
                                                                                     2,502    149,313         117,400–181,226
           facilities reported in 2012

           Total abuse allegations that nursing facilities reported in 2012          1,265     75,658              60,805–90,511

           Percentage of abuse allegations that nursing facilities reported in
                                                                                     1,265     50.7%               43.1%–58.2%
           2012

           Total injuries of unknown source allegations that nursing facilities
                                                                                       476     27,759               9,077–46,441
           reported in 2012

           Percentage of injuries of unknown source allegations that nursing
                                                                                       476     18.6%                8.3%–28.9%
           facilities reported in 2012

           Total misappropriation of resident property allegations that nursing
                                                                                       392     22,281              11,571–32,990
           facilities reported in 2012

           Percentage of misappropriation of resident property allegations
                                                                                       392     14.9%                8.7%–21.1%
           that nursing facilities reported in 2012

           Total neglect allegations that nursing facilities reported in 2012          275     17,553              12,745–22,361

           Percentage of neglect allegations that nursing facilities reported in
                                                                                       275     11.8%                8.4%–15.2%
           2012

           Total mistreatment allegations that nursing facilities reported in
                                                                                        92      5,961                2,216–9,706
           2012

           Percentage of mistreatment allegations that nursing facilities
                                                                                        92       3.9%                 1.5%–6.5%
           reported in 2012

           Total “other” allegations that nursing facilities reported in 2012            2        102                      0–241

           Percentage of “other” allegations that nursing facilities reported in
                                                                                         2       0.1%                 0.0%–0.2%
           2012

           Total employee-to-resident allegations                                    1,010     60,132              44,805–75,459

           Percentage of employee-to-resident allegations                            1,010     40.3%               32.2%–48.4%

           Total perpetrator-unknown allegations                                       659     39,099              19,940–58,258

           Percentage of perpetrator-unknown allegations                               659     26.2%               16.7%–35.7%

           Total resident-to-resident allegations                                      600     36,078              25,158–46,997

           Percentage of resident-to-resident allegations                              600     24.2%               17.6%–30.7%




Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)      22
         Continued—Table B-1: Point Estimates, Sample Sizes, and Confidence Intervals
                                                                                 Sample        Point              95-Percent
           Estimate Description
                                                                                   Size     Estimate      Confidence Interval

           Total resident-self-neglect allegations                                    89        5,733                2,592–8,873

           Percentage of resident-self-neglect allegations                            89         3.8%                 1.7%–6.0%

           Total family- or other visitor-to-resident allegations                     59        3,476                2,136–4,816

           Percentage of other visitor-to-resident allegations                        59         2.3%                 1.4%–3.3%

           Total nature-not-specified allegations                                     46        2,538                 696–4,380

           Percentage of nature-not-specified allegations                             46         1.7%                 0.5%–2.9%

           Total resident-to-employee allegations                                     25        1,320                   0–2,760

           Percentage of resident-to-employee allegations                             25        0.9%                  0.0%–1.9%

           Total outside medical professional-to-resident allegations                 14          938                 199–1,677

           Percentage of outside medical professional-to-resident allegations         14         0.6%                 0.2%–1.1%

           Percentage of large nursing facilities that had at least one
                                                                                    106        86.9%               80.9%–92.9%
           allegation of abuse or neglect in their facility in 2012

           Percentage of small nursing facilities that had at least one
                                                                                    103        83.7%               77.2%–90.3%
           allegation of abuse or neglect in their facility in 2012

           Finding 2: Estimates of nursing facilities’ written policies related to allegations of abuse or neglect

           Percentage of nursing facilities that had written policies that
           address both Federal regulations for reporting allegations of abuse      183       75.5%*               70.1%–80.9%
           or neglect

           Total number of nursing facilities that had written policies that
           address both Federal regulations for reporting allegations of abuse      183        11,744              10,902–12,586
           or neglect

           Total number of nursing facilities that had written policies that
           address reporting allegations of abuse or neglect immediately to
                                                                                    232        14,738              14,299–15,177
           the nursing facility administrator or designee and the State survey
           agency

           Percentage of nursing facilities that had written policies that
           address reporting allegations of abuse or neglect immediately to
                                                                                    232        94.8%               91.9%–97.6%
           the nursing facility administrator or designee and the State survey
           agency

           Total number nursing facilities that had written policies that
           address reporting investigation results to the nursing facility
                                                                                    185        11,871              11,039–12,703
           administrator or designee and the State survey agency within 5
           working days of the incident




Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)      23
         Continued—Table B-1: Point Estimates, Sample Sizes, and Confidence Intervals
                                                                                    Sample      Point             95-Percent
           Estimate Description
                                                                                      Size   Estimate     Confidence Interval

           Percentage of nursing facilities that had written policies that
           address reporting investigation results to the nursing facility
                                                                                       185     76.3%               71.0%–81.7%
           administrator or designee and the State survey agency within 5
           working days of the incident

           Percentage of large nursing facilities that had written policies that
           address both Federal regulations for reporting allegations of abuse          86    70.5%**              62.3%–78.6%
           or neglect

           Percentage of small nursing facilities that had written policies that
           address both Federal regulations for reporting allegations of abuse          97     78.9%               71.6%–86.1%
           or neglect

           Finding 3: Estimates of nursing facilities that had documentation to support that Federal regulations related
           to reasonable suspicions of crimes were met

           Percentage of nursing facilities that had documentation to support
           that both Federal regulations related to reasonable suspicions of           148     61.0%               54.8%–67.2%
           crimes were met

           Total number of nursing facilities that had documentation to
           support that both Federal regulations related to reasonable                 148      9,487               8,521–10,452
           suspicions of crimes were met

           Total number of nursing facilities that had documentation to
           support that they annually notified covered individuals of their
                                                                                       162     10,400               9,472–11,328
           obligation to report to the appropriate entities any reasonable
           suspicions of a crime

           Percentage of nursing facilities that had documentation to support
           that they annually notified covered individuals of their obligation to
                                                                                       162     66.8%               60.9%–72.8%
           report to the appropriate entities any reasonable suspicions of a
           crime

           Total number of nursing facilities that had documentation to
           support that they posted clearly a notice for its employees
                                                                                       195     12,429              11,638–13,220
           specifying employees’ rights to file a complaint under Section
           1150B of the SSA

           Percentage of nursing facilities that had documentation to support
           that they posted clearly a notice for its employees specifying
                                                                                       195     79.9%               74.8%–85.0%
           employees’ rights to file a complaint under Section 1150B of the
           SSA

           Percentage of large nursing facilities that had documentation to
           support that both Federal regulations related to reasonable                  70     57.4%               48.6%–66.2%
           suspicion of crimes were met

           Percentage of small nursing facilities that had documentation to
           support that both Federal regulations related to reasonable                  78     63.4%               54.8%–72.0%
           suspicion of crimes were met




Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)      24
         Continued—Table B-1: Point Estimates, Sample Sizes, and Confidence Intervals
                                                                                             Sample           Point                95-Percent
           Estimate Description
                                                                                               Size        Estimate        Confidence Interval

           Finding 4: Estimates of allegations of abuse or neglect that were reported by nursing facilities in compliance
           with Federal regulations

           Percentage of allegations of abuse or neglect that were reported
                                                                                                  161          53.4%               48.2%–58.8%
           by nursing facilities in compliance with both Federal regulations

           Total number of allegations of abuse or neglect that were reported
                                                                                                  161          1,338                  1,206–1,471
           by nursing facilities in compliance with both Federal regulations

           Total number of allegations of abuse or neglect that were reported
           immediately to the nursing facility administrator or designee and                      189          1,571                  1,442–1,700
           the State survey agency

           Percentage of allegations of abuse or neglect that were reported
           immediately to the nursing facility administrator or designee and                      189          62.8%               57.6%–67.9%
           the State survey agency

           Total number of allegations of abuse or neglect that had
           investigation results reported to the nursing facility administrator or
                                                                                                  191          1,588                  1,461–1,715
           designee and the State survey agency within 5 working days of the
           incident

           Percentage of allegations of abuse or neglect that had
           investigation results reported to the nursing facility administrator or
                                                                                                  191          63.4%               58.4%–68.5%
           designee and the State survey agency within 5 working days of the
           incident


           Percentage of large nursing facilities that reported allegations of
                                                                                                  111          56.9%               50.3%–63.5%
           abuse or neglect in compliance with Federal regulations


           Percentage of small nursing facilities that reported allegations of
                                                                                                   50          47.2%               38.1%–56.2%
           abuse or neglect in compliance with Federal regulations

          Source: OIG analysis of policies, survey responses, and investigation documentation provided by nursing facilities, 2014.

         *The actual percentage of nursing facilities that address both Federal regulations is 75.52 percent. The actual number, 75.52, rounds to
         75.5. As a whole number, this percentage rounds to 76 percent.
         **The actual percentage of large nursing facilities that address both Federal regulations is 70.49 percent. The actual number, 70.49,
         rounds to 70.5. However, as a whole number, this percentage rounds to 70 percent.




Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)                       25
                      APPENDIX C
                      Means Testing Results for Specific Data Points
   Table C-1: Chi Square Analysis on Reported Allegations of Abuse or Neglect and
   Nursing Facility Type


     Nursing Facility Type Compared                    Group A        Group B       Wald Chi-Square       F-Test Degrees of
                                                                                                                                   P-Value
     (Group A vs. Group B)                                Rate           Rate          Test Statistic             Freedom



     Large nursing facilities vs. small nursing                                                               numerator = 1
                                                           5,382            7,834                 0.502                             0.4793
     facilities                                                                                           denominator = 244


   Source: OIG analysis of survey responses provided by nursing facilities, 2014.




   Table C-2: Chi Square Analysis on Reporting Allegations of Abuse or Neglect in Part
   One of This Study and Nursing Facility Type


     Nursing Facility Type Compared                    Group A        Group B       Wald Chi-Square       F-Test Degrees of
                                                                                                                                   P-Value
     (Group A vs. Group B)                                Rate           Rate          Test Statistic             Freedom


     Nursing facilities that maintained
     policies for reporting allegations of
     abuse or neglect vs. nursing facilities                                                                  numerator = 1
                                                          12,480             736                  0.418                             0.5184
     that did not maintain policies for                                                                   denominator = 243
     reporting allegations of abuse or
     neglect

   Source: OIG analysis of policies and survey responses provided by nursing facilities, 2014.




   Table C-3: Chi Square Analysis on Maintained Policies That Addressed Federal
   Regulations and Nursing Facility Type


     Nursing Facility Type Compared                    Group A        Group B       Wald Chi-Square       F-Test Degrees of
                                                                                                                                   P-Value
     (Group A vs. Group B)                                Rate           Rate          Test Statistic             Freedom



     Large nursing facilities vs. small nursing                                                               numerator = 1
                                                           4,367            7,377                2.3705                             0.1249
     facilities                                                                                           denominator = 244


   Source: OIG analysis of policies provided by nursing facilities, 2014.




Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)              26
   Table C-4: Chi Square Analysis on Documentation Related to Reasonable Suspicions
   of Crimes and Nursing Facility Type


     Nursing Facility Type Compared                    Group A       Group B        Wald Chi-Square           F-Test Degrees of
                                                                                                                                          P-Value
     (Group A vs. Group B)                                Rate          Rate           Test Statistic                 Freedom



     Large nursing facilities vs. small nursing                                                                      numerator = 1
                                                           3,554         5,932                   0.9704                                    0.3256
     facilities                                                                                                denominator = 244


   Source: OIG analysis of nursing facilities’ submitted documentation regarding reasonable suspicion of crimes, 2014.




   Table C-5: Chi Square Analysis on Reporting Allegations of Abuse or Neglect in a
   Timely Manner and to the Appropriate Individuals by Nursing Facility Type


     Nursing Facility Type Compared                    Group A       Group B        Wald Chi-Square           F-Test Degrees of
                                                                                                                                          P-Value
     (Group A vs. Group B)                                Rate          Rate           Test Statistic                 Freedom



     Large nursing facilities vs. small nursing                                                                      numerator = 1
                                                             923           415                      3.22                                   0.0739
     facilities                                                                                                denominator = 300


   Source: OIG analysis of documentation for allegations of abuse or neglect provided by nursing facilities, 2014.




Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)                     27
                   APPENDIX D
                   Example of Letter Notifying Covered Individual of Obligation to Report
                   Reasonable Suspicion of Crimes43




                   43
                      This example was provided by one of the sampled nursing facilities in part one of this
                   evaluation. The name of the nursing facility has been redacted.

Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)   28
                   APPENDIX E
                   Example of a Posted Notification Specifying Employees’ Rights to File a
                   Complaint under Section 1150B of the SSA44




                   44
                      This example was provided by one of the sampled nursing facilities in part one of this
                   evaluation.

Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)   29
                     APPENDIX F
                     Agency Comments




              DEPARTMENT OF HEALTH & HUMAN SERVICES Centers tor t.M!dicaro & Medicaid Services

                   ---------·····-·-- ·-------·· ····-----­
                                                                                            Administrator
                                                                                            Washington, DC 20201




             DATE:            JUN 11 2014

             TO: 	           Daniel R. Levinson
                             Inspector General
                                                     /S/
             FROM: 	         Nlal'il.vn T.!ivcmner
                             Acting 1\dmin\<;trator

             SUBJECT: 	 Office oflnspcctor General (OK!) Draft Report: Nursing Facilities' Compliance with
                        l'ederal Requirements for Reporting Allegations of Abuse or Neglect
                        (OEI-07-13-000 I0)


             Thank you for the opportunity to review and comment on the above subject OIG draft report
             which discusses the extent to which nursing facilities have met the requirements outlined in Section
             11508 of the Social Security Act (the Act) for notifying individuals of their responsibilities to report
             suspicions of a crime including allegations of abuse. neglect or misappropriation of resident proper1y.
             OIG's objectives for this report are to determine the extent to which- (I) Nursing facilities:

             (a) Reported allegations of abuse or negkct in 2012.

             (b) Had WTitten policies that address reporting allegations of abuse or neglect as required by
                 federal requirements.

             (c) 	 Complied with federal requirements related to reasonable suspicions of crimes under Section
                   11508 of the Social Security Act (SSA); and

             (2) Allegations of abuse or neglect were reported by nursing facilities in compliance with
             federal requirements.

             The CMS responses to OIG's recommendations are discussed below.

             OIG Recommendation

             The OIG recommends that CMS ensure that nursing facilities maintain policies related to
             reporting allegations of abuse or neglect.




Nursing Facilities' Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-0001 0)       30
Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)   31
Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)   32
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Brian T. Whitley, Regional
                   Inspector General for Evaluation and Inspections, in the Kansas City
                   regional office.
                   Rae Hutchison served as team leader for this study. Other Office of
                   Evaluation and Inspections staff from the Kansas City regional office who
                   conducted the study include Teresa Dailey, Conswelia McCourt, and
                   Dennis Tharp. Central office staff who provided support include
                   Clarence Arnold and Heather Barton.




Nursing Facilities’ Compliance With Requirements for Reporting Allegations of Abuse or Neglect (OEI-07-13-00010)   33
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
